Report No. DODIG-2012-126        September 10, 2012




          Quality Control Review of the
          Defense Commissary Agency
            Internal Audit Function
Additional Information and Copies
The Department of Defense, Office of the Assistant Inspector General for Audit Policy
and Oversight, prepared this report. To obtain additional copies of the final report, visit
www.dodig.mil/audit/reports or contact the Office of the Assistant Inspector General for
Audit Policy and Oversight at (703) 604-8760 or fax (571) 372-7454.

Suggestions for Reviews
To suggest or request reviews, contact the Office of the Assistant Inspector General for
Audit Policy and Oversight by phone (703) 604-8760 (DSN 664-8760), by fax
(571) 372-7454, or by mail:

                       Department of Defense, Office of Inspector General
                       OAIG-Audit Policy and Oversight
                       Attn: APO, Suite 11D28
                       4800 Mark Center Drive
                       Alexandria, VA 22350-1500




Acronyms and Abbreviations
DeCA                   Defense Commissary Agency
DeCAM                  Defense Commissary Agency Manual
GAGAS                  Generally Accepted Government Auditing Standards
                                 INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500




                                                                        September 10, 2012

MEMORANDUM FOR DIRECTOR, DEFENSE COMMISSARY AGENCY

SUBJECT: Quality Control Review of the Defense Commissary Agency Internal Audit
         Function (Report No. DODIG-2012-126)

We are providing this report for your information and use. We have reviewed the
Defense Commissary Agency (DeCA) Office of Internal Audit system of quality control
in effect for the period ended July 31, 2011. A system of quality control for DeCA’s
audit organization encompasses the audit organization’s leadership, emphasis on
performing high quality work, and policies and procedures established to provide
reasonable assurance of compliance with generally accepted government auditing
standards (GAGAS). The DeCA Office of Internal Audit is responsible for designing a
system of quality control and complying with its system to provide DeCA management
with reasonable assurance that its audits are performed and reported on in accordance
with GAGAS in all material respects.

Our review was conducted in accordance with GAGAS and guidelines established by the
Council of the Inspectors General on Integrity and Efficiency. We tested the DeCA’s
Office of Internal Audit organization’s system of quality control to the extent we
considered appropriate. GAGAS require that an audit organization performing audits or
attestation engagements, or both, in accordance with GAGAS have an appropriate
internal quality control system in place and undergo an external quality control review at
least once every 3 years by reviewers independent of the audit organization being
reviewed. An audit organization’s quality control policies and procedures should be
appropriately comprehensive and suitably designed to provide reasonable assurance that
they meet GAGAS requirements for quality control.

Federal audit organizations can receive a rating of pass, pass with deficiencies, or fail. In
our opinion, the DeCA Office of Internal Audit organization’s system of quality control
for audits was suitably designed in accordance with the quality standards established by
GAGAS. Accordingly, we are issuing a pass opinion on DeCA’s Office of Internal Audit
organization’s system of quality control for the review period ended July 31, 2011.

Appendix A contains background, comments, observations, and recommendations for
DeCA Office of Internal Audit to improve its quality control system. Appendix B
contains a summary of the results of our interviews with the DeCA Office of Internal
Audit staff. Appendix C contains the scope and methodology of the review.
We appreciate the courtesies extended to the audit staff. For additional information on
this report, please contact Mr. Robert L. Kienitz at (703) 604-8754 (DSN 664-8754).




                               Assistant Inspector General
                             for Audit Policy and Oversight
Appendix A. Background, Comments,
Observations, and Recommendations
Background
Defense Commissary Agency
The Defense Commissary Agency (DeCA), established on October 1, 1991, operates a
worldwide chain of commissaries in 13 countries and two U.S. territories, providing
groceries to military personnel, retirees, and their families. As of September 30, 2011,
DeCA had 248 stores with total FY 2011 sales of $5.9 billion. DeCA is headquartered at
Fort Lee, Virginia, employs approximately 17,000 employees, and serves approximately
12 million customers.

DeCA Internal Audit Organization
The DeCA Office of Internal Audit, an independent office within DeCA, reports directly
to the Director and Chief Executive Officer, DeCA. It provides independent and
objective internal audit services through an appropriate mix of performance, compliance,
and financial audits. It initiates and conducts audits relating to DeCA programs and
operations, and reports the results. The office consists of a Director, Deputy Director
(currently vacant), one administrator, and eight auditors. During our review period,
DeCA filled the vacant director’s position. The office also published its first audit
manual, DeCA Manual 90-5.1, “DeCA Internal Audit Manual,” on August 10, 2011,
implementing generally accepted government auditing standards (GAGAS).

Comments, Observations, and Recommendations
We are issuing a pass opinion because we determined that the system of quality control
for the DeCA Office of Internal Audit is adequately designed and functioning as
prescribed. The findings we identified during our review of the selected audit reports
were not cumulatively significant enough to rise to the level of deficiency or significant
deficiency based on our opinion and as defined by the Council of the Inspectors General
on Integrity and Efficiency Guide for Conducting External Peer Reviews of the Audit
Organizations of Federal Offices of Inspector General.

We judgmentally selected four reports 1 to review for compliance with GAGAS in nine
areas: quality control, independence, professional judgment, competence, audit
planning, supervision, evidence, audit documentation, and reporting. We identified five
areas with findings relating to quality control, independence, audit planning, supervision,
and audit documentation.




1
  One of the four reports, misclassified a performance audit, was actually a nonaudit service. GAGAS
standards do not cover nonaudit services, except for evaluating organizational independence when
performing such a service.

                                                   1
Quality Control System
GAGAS, version 2007, 2 paragraph 3.52, requires each audit organization to document its
quality control procedures and communicate those procedures to its personnel. Our
review covered the period August 1, 2009 to July 31, 2011. During this period, the
DeCA Office of Internal Audit quality control system consisted of a draft internal audit
manual.

The DeCA Office of Internal Audit published DeCA Manual (DeCAM) 90-5.1, “DeCA
Internal Audit Manual,” on August 10, 2011. Although this manual was published 10
days after the cutoff of our review period, we chose to review it to determine whether it
adequately implemented GAGAS. The manual did not contain a section implementing
GAGAS general standards of independence, professional judgment, competence, and
quality control and assurance.

The manual also lacked policies and procedures for performing nonaudit services. One
of the reports we reviewed was a nonaudit service; however, documentation contained in
the project revealed confusion on the auditors’ part as to whether this project was a
performance audit or a nonaudit service. For example, the project review plan stated that
this was an audit and the Independent Reference Review certification, signed by the
Auditor-in-Charge, the Independent Reference Reviewer, and the Audit Manager, stated
that this audit was done in compliance with GAGAS. However, the final report did not
contain a statement that the project was done in compliance with GAGAS, which was
correct for a nonaudit service. Without proper policies and procedures, auditors had
difficulty determining the type of project they were performing.

Recommendations, Management Comments, and Our
Response
Recommendations
We recommend that the Director, DeCA:

    1. Revise DeCAM 90-5.1, “DeCA Internal Audit Manual,” to include a section
       to fully implement the independence, professional judgment, competence,
       and quality control and assurance standards contained in the general
       standards section of GAGAS.

Management Comments
The Director, DeCA concurred. The DeCA Internal Audit Manual (DeCAM 90-5.1) has
been revised to include sections on independence, professional judgment, competence,
and quality control.


2
 The newest version of GAGAS is dated December 2011. However, for this review, we were required to
use the July 2007 version of GAGAS, as it covered the period of our review, August 1, 2009 to July 31,
2011.

                                                   2
Our Response
The Director, DeCA comments were responsive and the actions meet the intent of the
recommendation.

   2. Revise DeCAM 90-5.1, “DeCA Internal Audit Manual,” to include guidance
      on the performance of nonaudit services.

Management Comments
The Director, DeCA concurred. The DeCA Internal Audit Manual (DeCAM 90-5.1) has
been revised to include a section on nonaudit services.

Our Response
The Director, DeCA comments were responsive and the actions meet the intent of the
recommendation.

Independence
Personal Independence
Two of the projects reviewed did not contain personal independence statements.
GAGAS, version 2007, paragraph 3.08.f, requires audit organizations to maintain
documentation of the steps taken to identify potential impairments to personal
independence. The DeCA Office of Internal Audit required all audit staff to complete an
annual independence statement and file the statements in quasi-official personnel folders
held by the office administrator. However, not all project folders contained a copy of
these independence statements. Because some projects did not contain the required
statements, external reviewers had to determine the independence of all auditors assigned
to each project. At the time of our site visit in January 2012, a new policy was in effect at
the DeCA Office of Internal Audit to create a new independence statement for each new
project and place that statement in the project documentation; therefore, we have no
recommendations.

Organizational Independence
DeCA Office of Internal Audit performed two nonaudit service projects during the period
of our review. The files for the projects titled “Value of the Commissary Benefit Study”
and “Vendor Credit Memorandum, Little Creek Commissary” did not contain the
required documented analysis showing that providing this service would not impair the
DeCA Office of Internal Audit’s organizational independence. GAGAS, version 2007,
paragraph 1.34, states that audit organizations that provide nonaudit services must
evaluate whether providing nonaudit services creates an independence impairment either
in fact or appearance with respect to the entities they audit. Further, GAGAS, version
2007, paragraph 3.30.a, states that the audit organization should document its
consideration of nonaudit services, including its conclusions about the impact on
independence. This evaluation should always be performed when the decision is made to
perform a nonaudit service to ensure the consideration of potential for an independence
impairment. Although the DeCA Office of Internal Audit draft internal audit manual did

                                             3
not contain guidance on the performance of nonaudit services, we did not identify any
organizational independence impairment issues.

Recommendations, Management Comments, and Our
Response
Recommendations
We recommend the Director, DeCA:

   3. Revise DeCAM 90-5.1, “Internal Audit Manual,” to include guidance on how
      to evaluate and document organizational independence when deciding
      whether to perform a nonaudit service.

Management Comments
The Director, DeCA concurred. The DeCA Internal Audit Manual (DeCAM 90-5.1) has
been revised to include guidance on evaluating and documenting organizational
independence when determining to perform a nonaudit service.

Our Response
The Director, DeCA comments were responsive and the actions meet the intent of the
recommendation.

   4. Ensure that the files of any future nonaudit service performed by the DeCA
      Office of Internal Audit contain the required documented evaluation
      concerning organizational independence.

Management Comments
The Director, DeCA concurred. DeCA Office of Internal Audit created a nonaudit
service statement that is to be completed by the auditors and filed in the project.

Our Response
The Director, DeCA comments were responsive and the actions meet the intent of the
recommendation.

Audit Planning
Two of the projects we reviewed had audit planning issues. GAGAS, version 2007,
paragraph 7.11, states that auditors should assess audit risks that are significant within the
context of the audit objective by gaining an understanding of the following:

   •   the nature and profile of the programs and the needs of potential users of the audit
       report,

   •   internal control as it relates to the specific objectives and scope of the audit, and

                                              4
   •   information systems controls for assessing audit risk and planning the audit.

Further, GAGAS, version 2007, paragraph 7.30, requires auditors to assess risks of fraud
occurring that are significant within the context of the audit objectives.

For the “Front-End Operations Fraud Indicators” audit, we did not identify any working
papers supporting that an assessment of audit risks was performed. Specifically, no
support existed that the auditors gained an understanding of the nature and profile of the
programs and needs of potential users, internal control, and the information systems
controls. Assessing audit risks provides auditors reasonable assurance that the evidence
they obtain is sufficient and appropriate to support their findings and conclusions.

The DeCA auditors did not perform fraud risk assessments for the “Front-End Operations
Fraud Indicators” and “Equipment Installation on New Construction, Additions and
Alterations” audits. For example, for the “Front-End Operations Fraud Indicators” audit,
the audit guide documented the following as one of the audit objectives: “the audit will
focus on ensuring that controls are in place and operating as intended to help mitigate
fraudulent activities.” However, there were no working papers supporting that a fraud
risk assessment was performed for this audit.

Recommendation, Management Comments, and Our
Response
Recommendation

   5. We recommend that the Director, DeCA ensure that auditors perform and
      document assessments of audit risks and fraud risks.

Management Comments
The Director, DeCA concurred. The DeCA Office of Internal Audit created mandatory
steps within the TeamMate template for all auditors to evaluate audit and fraud risks.

Our Response
The Director, DeCA comments were responsive and the actions meet the intent of the
recommendation.

Supervision
One project reviewed lacked adequate documentation of supervision. GAGAS, version
2007, paragraph 7.80c, states that auditors should document evidence of supervisory
review, before the audit report is issued, for the work performed that supports findings,
conclusions, and recommendations contained in the audit report.

For the “Front-End Operations Fraud Indicators” audit, only 1 of the 24 working papers
prepared by the auditors was evidenced as reviewed by a supervisor. Twenty-two of the

                                             5
working papers were shown as “In Progress,” and 1 was shown as “Prepared” in
TeamMate 3. Seven of the working papers not evidenced as reviewed by a supervisor
supported the findings, conclusions, and recommendations in the report.

Recommendations, Management Comments, and Our
Response
Recommendation

    6. We recommend that the Director, DeCA, provide training on documenting
       supervision to all individuals who supervise audit projects and on signing
       working papers and reports.

Management Comments
The Director, DeCA concurred. The DeCA Office of Internal Audit has completed
training on the use of TeamMate thus improving oversight.

Our Response
The Director, DeCA comments were responsive and the actions meet the intent of the
recommendation.

Audit Documentation
All projects reviewed had issues with the adequacy of audit documentation. GAGAS,
version 2007, paragraph 7.77, states:

        Auditors should prepare audit documentation in sufficient detail to enable an
        experienced auditor, having no previous connection to the audit, to understand
        from the audit documentation the nature, timing, extent, and results of audit
        procedures performed, the audit evidence obtained and its source and the
        conclusions reached, including evidence that supports the auditors’ significant
        judgments and conclusions.

Further, GAGAS, version 2007, paragraph 7.80.b, requires documented evidence of work
performed.

For the “Review of Wrongfully Terminated Associate’s Medical Expenses” audit, the
term “N/A” (not applicable) was documented in the Scope, Results, and Conclusion
sections for three individual working papers. For the Scope section, we would expect to
see the specific time frame reviewed. In addition, for the Results and Conclusion section,
we would expect to see the results for the review of prior audit coverage and whether this
would be incorporated into the preparation of the audit program.

3
 TeamMate is the electronic audit management system that DeCA Office of Internal Audit uses to prepare
and store their working papers, findings, documentation supporting analysis and conclusions, and audit
reports. Additional TeamMate information can be found at www.cchteammate.com.

                                                   6
For the “Front-End Operations Fraud Indicators” audit, the Source was not documented
for 11 individual working papers, the Conclusion was not documented for five individual
working papers, and the Results/Discussion was not documented for two individual
working papers. These working papers supported the findings, conclusions, and
recommendations in the report. For example, one of the working papers prepared by the
auditors was to document the information systems used by DeCA to process data.
Finally, 22 working papers were created by the auditor but were not signed off as
completed. Seven of those working papers support the report. Examples include the
working papers prepared documenting the review and analysis of coupon acceptance and
redemption activities at the four commissaries visited by the audit team.

For the “Equipment Installation on New Construction, Additions and Alterations” audit,
the project documentation was lacking sufficient detail for another auditor to perform the
steps and come to the same conclusion. For example, a client-provided spreadsheet was
compared to an online database for accuracy; however, no evidence, such as screen shots,
of the online database was documented to validate the accuracy of the data in the
spreadsheet, and because the database changes on a daily basis, it could not be recreated
for the moment that it was used for validation. In addition, cross referencing throughout
the project could have been better to allow another auditor to easily follow the work
performed.

Recommendation, Management Comments, and Our
Response
Recommendation

   7. We recommend that the Director, DeCA, provide training on audit
      documentation, cross referencing, and use of TeamMate.

Management Comments
The Director, DeCA concurred. The DeCA Office of Internal Audit auditors completed
training on audit documentation, cross referencing, and in the use of the TeamMate
software.

Our Response
The Director, DeCA comments were responsive and the actions meet the intent of the
recommendation.




                                            7
Appendix B. Summary of Interview Results
Relating to DeCA Audit Policies and GAGAS
We interviewed the DeCA Office of Internal Audit Director and eight DeCA staff
members to determine their knowledge of DeCA audit policies and GAGAS. The
interviews consisted of questions related to the DeCA Office of Internal Audit policies
and GAGAS fieldwork and reporting standards. A summary of the results of the
responses received follows:

Areas Pertaining to DeCA Office of Internal               Staff Responses to Questions
  Audit Policies and GAGAS Standards
   1. Awareness of DeCA Office of Internal        All staff were aware of the audit policies.
       Audit Policies
   2. Compliance with GAGAS                       Most staff stated that their work complied with
                                                  GAGAS standards.
   3. Independence                                All staff stated that they did not encounter any
                                                  external or organizational independence
                                                  impairments when performing their work.

                                                  All staff stated that they did not perform any
                                                  nonaudit services that could impact
                                                  independence.
   4. Competence                                  Staff responses indicated that the competency
                                                  requirement was fulfilled.
   5. Quality Control and Assurance               Depending on the years of auditing experience
                                                  and length of employment at the DeCA Office
                                                  of Internal Audit, answers varied from
                                                  extensive to minimal understanding of quality
                                                  control procedures.
   6. Planning (Key Decisions)                    Staff involved with audit planning documented
                                                  key planning decisions and communicated with
                                                  the client throughout the planning phase.
   7. Planning (Fraud)                            Most staff stated that risk assessments were not
                                                  consistently performed before DeCA Manual
                                                  90-5.1 was published in August 2011. DeCA
                                                  Manual 90-5.1 requires risk assessments to be
                                                  performed for each audit.
   8. Supervision                                 All staff stated that they received or provided
                                                  adequate supervision.
   9. Audit Documentation                         Staff provided examples of activities to show
                                                  that audit reports are properly supported.
   10. Evidence                                   Staff provided examples to show that audit
                                                  evidence is supported in the final audit report.
   11. Reporting (Timeliness)                     The staff provided examples of activities to
                                                  show that information provided in reports are
                                                  current and relevant.



                                              8
Appendix C. Scope and Methodology
We reviewed the adequacy of the DeCA’s Office of Internal Audit compliance with
quality policies, procedures, and standards. In performing our review, we considered the
requirements of quality control standards contained in the July 2007 Revision of GAGAS
issued by the Comptroller General of the United States. GAGAS 3.56 states:

       The audit organization should obtain an external peer review sufficient in scope
       to provide a reasonable basis for determining whether the audit organization is
       complying with its quality control system in order to provide the audit
       organization with reasonable assurance of conforming with applicable
       professional standards.

We performed this review from August 2011 to June 2012 in accordance with standards
and guidelines established in the March 2009 Council of the Inspectors Generals on
Integrity and Efficiency Guide for Conducting External Peer Reviews of the Audit
Organizations of Federal Offices of Inspector General. In performing this review, we
assessed, reviewed, and evaluated audit documentation, interviewed DeCA Office of
Internal Audit auditors, and reviewed DeCA Office of Internal Audit internal policies that
were officially published on August 10, 2011.

We judgmentally selected four audit reports from a universe of 14 reports issued by the
Office of Internal Audit during the period of August 1, 2009 to July 31, 2011. In
selecting reports, we worked with the DeCA Office of Internal Audit to establish the
universe of reports that were issued during the review period. We then selected audits
that were more recent to review the most current quality assurance procedures being
used, and we chose a variety of audits to ensure we reviewed multiple types of projects.

The following table identifies the specific reports reviewed. The Type of Review column
contains information that was determined by the report GAGAS compliance statement
and/or type of review described in the final report.




                                                  9
      Report Number                      Report Title and          Type of Review
                                            Issue Date
       DeCA IR 11-04                   Review of Wrongfully         Performance
                                      Terminated Associate’s
                                     Medical Expenses, May 2,
                                               2011
       DeCA IR 11-01                 Value of the Commissary        Performance*
                                     Benefit Study, January 6,
                                               2011
       DeCA IR 10-09                Front-End Operations Fraud      Performance
                                     Indicators, November 15,
                                               2010
       DeCA IR 10-07                 Equipment Installation on      Performance
                                        New Construction,
                                     Additions and Alterations,
                                           July 30, 2010
*Nonaudit service incorrectly classified as a performance audit.

Limitations of Review. Our review would not necessarily disclose all weaknesses in the
system of quality control or all instances of noncompliance because we based our review
on selective tests. There are inherent limitations in considering the potential
effectiveness of any quality control system. In performing most control procedures,
departures can result from misunderstanding of instructions, mistakes of judgment,
carelessness, or other human factors. Projecting any evaluation of a quality control
system into the future is subject to the risk that one or more procedures may become
inadequate because conditions may change or the degree of compliance with procedures
may deteriorate.




                                                    10
Defense Commissary Agency, Headquarters
Comments




                    11
